HHS/OIG, Audit -"Review of Windham Hospital's Controls to Ensure Accuracy of Wage Data Used
for Calculating Inpatient Prospective Payment System Wage Indexes,"(A-01-04-00511)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Windham Hospital's Controls to Ensure Accuracy of Wage Data Used for Calculating
Inpatient Prospective Payment System Wage Indexes," (A-01-04-00511)
April 27, 2005
Complete
Text of Report is available in PDF format (352 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Windham Hospital (the hospital) reported fiscal
year (FY) 2000 Medicare cost report wage data in compliance with Medicare laws, regulations, and guidance.  We
found that the hospital did not fully comply with Medicare laws, regulations, and guidance for the
reporting of wage data and overstated wage data reported by $404,402 for the Medicare FY 2000 cost
report period.  Due to the impact of overstated wages, the FY 2004 (1) Connecticut statewide rural
wage index is overstated by about 1 percent, and (2) average payment to the 2 hospitals in the Connecticut
statewide rural area and 17 additional hospitals in 2 Connecticut urban metropolitan statistical areas
is overstated by about $24 per hospital discharge.  We recommended that the hospital strengthen
financial reporting controls.  The hospital concurred with our findings and recommendations, except
our finding that wage data was overstated due to the inclusion of unfunded postretirement benefit costs.  We
removed this finding from our final report and addressed the issue in the Other Matters section of
the report.